c

IN THE
SUPREME COURT OF THE UNITED STATES

Supre

PHILLIP A. BENJAMIN,

HL?D rt'US-

2020

Petitioner

2m2^2mCLERK

VS.

SECRETARY, DEPT. OF CORR., et al.,
Respondent

ON PETITION FOR A WRIT OF CERTIORARI
FROM THE
STATE OF FLORIDA SUPREME COURT

PETITION FOR A WRIT OF CERTIORARI

PHILLIP^. BENJAMlN^iC# P23536
Petitioner,pro se
rp-'^'-'-FiVED
Century Correctional Institution'
400 Tedder Road
DEC - 2 2020
Century, Florida 32535
OFFICE OF THE CLERK
SUPREME COURT, U.S.

1

QUESTIONS PRESENTED
1. Did the Trial Court err when limiting the testimonies of the defense witness
from testifying of vital information, therefore, hindering the Defendant from
defending himself thus depriving the Defendant of a fair trial and due process
that guaranteed in the Sixth and Fourteenth Amendments to the U.S.
Constitution.
2. Did the Trial Court err in allowing an indigent Defendant to be convicted of a
non-existent and non-statutory charge in the body of the information depriving
the Defendant due process of being aware of the correct charges, a clear
violation of his Sixth and Fourteenth Amendment rights of the U.S.
Constitution.
3. Did the Trial Court err in allowing the striking of a particular cognizable group
of people from the jury depriving the Defendant of an impartial jury of a cross
section of his community violating his due process and equal protection clause
of the Fourteenth Amendment to the U.S. Constitution.

LIST OF PARTIES
All parties appear in the caption of the case on the cover page.

RELATED CASES
Benjamin v. State, 44 Fla.L.Weekly D2108a (Fla. 1st DCA 2019)
Benjamin v. State, App. LEXIS 13020 (August 23, 2019)

TABLE OF CONTENTS
page(s)

QUESTIONS PRESENTED

11

LIST OF PARTIES

11

RELATED CASES

11

TABLE OF CONTENTS

in

INDEX TO APPENDICES

IV

TABLE OF AUTHORITIES
OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTION AND STATUTORY PROVISIONS INVOLVED

2

STATEMENT OF THE CASE

4

ARGUMENT
ISSUE ONE - INEFFECTIVE ASSISTANCE OF COUNSEL

5

ISSUE TWO - TRIAL ERROR

13

ISSUE THREE - PROSECUTORIAL MISCONDUCT

19

REASONS FOR GRANTING THE PETITION

29

CONCLUSION

30

PROOF OF SERVICE

31

in

INDEX TO APPENDICES
APPENDIX A

Unpublished Opinions

APPENDIX B

Trial Transcripts

Witness
Katina Henderson
Lorenzo “Bo” Benjamin
Aayana McCreary
Victim
Barbara Valletta
Shannon Elliott
Douglas Benjamin
Phillip Benjamin
Victim

Direct
148
185
205
236
282
298
324
332
364

APPENDIX C

Victim Deposition Transcripts

APPENDIX D

Hearsay Transcripts

APPENDIX E

Sentencing Transcripts

APPENDIX F

Police Report Warrant

IV

Cross
175
197
231
262
292
310
336
348
365

Redirect
182
200
234
274
297
312
362

TABLE OF AUTHORITIES CITED
CASES

page(s)

Batson v. Kentucky, 476 U.S. 79, 90 L.Ed.2d 69,
106 S.Ct. 1712(1986)

21

Butler v. State, 842 So. 2d 817 (Fla. 2003)

18

Furlow v. State, 529 So. 2d 804 (Fla. 1st DCA 1988)

11

Giglio v. U.S, 405 U.S. 150, 154, 31 L.Ed.2d 104,
90 S.Ct. 763 (1972)

21

Hyre v. State, 240 So. 3d 47 (Fla. 2nd DCA 2018)

18

Strickland v. Washington, 466 U.S. 668, 104 S.Ct. 2052,
80 L.Ed. 2d 674(1984)

6

Swain v. Alabama, 380 U.S. 203, 204,13 L.Ed.2d 759,
85 S.Ct. 824 (1964)

20

U.S. v. Cronic, 466 U.S. 648, 654, 104 S.Ct. 2039, 2044,
80 L.Ed.2d 657(1984)

3

FLORIDA STATUTES

§90.401

16

§90.402

15, 16

§90.403

17

§90.404(2)(b)l

18

§90.80 l(2)(a)

8

§90.803(23)

14

§90.803(c)

14

§787.01(2)

12, 28

§787.02(2)

12, 28

§800.04(4)(a)l

5, 12, 28

§800.04(4)(b)

5, 12, 28

§800.04(5)(a)

5, 12, 28

§800.04(5)(c)2

5,12, 28

§921.0024(l)(b)

5,12, 28

FLORIDA RULES OF COURT
Rule 3.704(2)(1), Fla.R.Crim.P.

13,24

Rule 3.800(b)(2), Fla.R.Crim.P.

5

FLORIDA CONSTITUTION
Article I, §16

5

FEDERAL STATUTES
28 U.S.C. § 1257(a)

2

U.S. CONSTITUTION
Fifth Amendment

passim

Sixth Amendment

passim

Fourteenth Amendment

passim

VI

No.
SUPREME COURT OF THE UNITED STATES
PHILLIP A, BENJAMIN,
Petitioner,
vs.
SECRETARY, DEPT. OF CORR., et al.,
Respondent.

PETITION FOR A WRIT OF CERTIORARI
Petitioner, respectfully prays that a Writ of Certiorari issue to review the
judgment below.
OPINIONS BELOW
The opinion of the highest state court, the Florida Supreme Court, to review
the merits appears at Appendix A to the Petition and was unpublished.
The opinion of the First District Court of Appeals appears at Appendix A to
the Petition and was unpublished.
JURISDICTION
This Court has jurisdiction to entertain this cause where the instant Petition
is filed within ninety (90) days of the date the opinion of the Supreme Court of the
State of Florida sought to be reviewed was rendered, to wit:

1

The opinion of the Supreme Court of the State of Florida sought to be
reviewed was rendered on June 29, 2020. A copy thereof appears at Appendix A.
An Extension of Time to file the Petition for a Writ of Certiorari was granted
to and including November 25, 2020.
Therefore, this Court may exercise its discretionary jurisdiction pursuant to
28 U.S.C. § 1257(a).
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
CONSTITUTION OF THE UNITED STATES
Amendment V provides:
No person shall be held to answer for a capital, or otherwise infamous crime,
unless of a presentment or indictment of a Grand Jury, expect in cases arising in
the land or naval forces, or in the militia. When in actual service in time of war or
public danger; nor shall any person be subject for the same offense to be twice put
in jeopardy of life or limb; nor shall be compelled in any criminal case to be a
witness against himself, nor be deprives of life, liberty, or property, without due
process of law; nor shall private property be taken for public use, without just
compensation.
NOTE:
This Amendment contains important protections for people accused of
crimes. One of the protections is that government may not deprive any person of

2

life, liberty, or property without due process of law.

This means that the

government must follow proper constitutional procedures in trials and in other
actions it takes against individuals.
Amendment VI provides:
In all criminal prosecutions, the accused shall enjoy the right to a speedy and
public trial, by an impartial jury of the state and district wherein the crime shall
have been committed, which district shall have been previously ascertained by law,
and to be informed of the nature and cause of the accusation; to be confronted with
the witnesses against him, to have compulsory process for obtaining witnesses in
his favor, and to have the assistance of counsel for his defense.
NOTE:
A basic protection is the right to a speedy, public trial. The jury must hear
witnesses and evidence on both sides before deciding the guilt or innocence of a
person charged with a crime. There is also a basic right of effective assistance of
counsel. (U.S. v. Cronic, 466 U.S. 648, 654, 104 S.Ct. 2039, 2044, 80 L.Ed.2d 657
(1984)).
Amendment XIV provides:
All persons bom or naturalized in the United States and subject to the
jurisdiction thereof, are citizens of the United States and of the state wherein they
reside. No state shall make or enforce any law which shall abridge the privileges or
3

immunities of the citizens of the United States; nor shall any state deprive any
person of life, liberty, or property, without due process of law; nor deny to any
person within its jurisdiction the equal protections of the laws.
NOTE:
The 14th Amendment (1868) originally was intended to protect the legal
rights of the freed slaves. Today it protects the rights of citizenship in general by
prohibiting a State from depriving any person of life, liberty, or property without
“due process of law,” In addition, it states that all citizens have the right to “equal
protection of the law” in all States.
STATEMENT OF THE CASE
The Defendant, Phillip A. Benjamin, on July 31, 2017, Amended
Information in Escambia County, Case No.: 2016-CF-6651, charged Defendant
with Lewd or Lascivious Battery (Victim Over 12 But Under 16). It alleged in
Count 1 that the Defendant: “On one or more occasions between October 23-24,
2016, being then eighteen (18) years of age, to wit: 56 years of age did unlawfully
engage in sexual activity with a person twelve (12) years of age or older but less
than sixteen (16) years of age, Victim, 13 years of age ... by intentionally touching
in a lewd or lascivious manner the child’s genitals, genital area, or the clothing
covering them, and by penetrating the child’s vagina with his finger, in violation of

4

Section 800.04(4)(a)l, 800.04(4)(b), 800.04(5)(a) and 800.04(5)(c)2.

The

Defendant was only charged with one count.
Defendant was found guilty by jury of the charges of lewd or lascivious
battery and was sentenced on September 20, 2017 to 226.5 months in prison but
this was reduced to fifteen (15) years (per Fla. Stat. 921.0024(l)(b) as Appellate
Counsel successfully filed a Rule 3.800(b)(2), Fla.R.Crim.P. while on direct appeal
and granted by the Trial Court).
The Defendant contends that the judgment and sentence, for which he is in
custody for, is illegal detention based on a conviction for a non-existent
offense/crime as described in the body of the amended information. This is in
violation of the Sixth Amendment to the U.S. Constitution and Article I, §16 of the
Florida Constitution, which grants the Defendant of the right to be informed of the
correct nature and information charged against him. (See Argument(s)).
ARGUMENTS
ISSUE ONE
INEFFECTIVE ASSISTANCE OF COUNSEL
The constitutional rights of an indigent defendant to effective assistance of
counsel includes the right to an attorney who performs with sufficient competency
to fulfill the proper role of an advocate. But in the instant case, trial court did not
furnish Defendant with such a counsel acting in the role of an advocate nor did it

5

provide that full consideration and resolution of the matter as is obtained when
counsel is acting in that capacity.

The necessity for counsel so acting is

highlighted by the deficient and prejudice which disadvantaged the Defendant to
suffer due to an accumulation of plain errors that are outlined below. {Strickland v.
Washington, 466 U.S. 668, 104 S.Ct. 2052, 80 L.Ed. 2d 674 (1984). These errors
hindered the Defendant from receiving a full and fair trial and due process
guaranteed by the Sixth and Fourteenth Amendments of the Constitution of the
United States.
COUNSEL WAS DEFICIENT BECAUSE HE MADE A BOILERPLATE
MOTION OF JUDGMENT OF ACQUITTAL WITHOUT SETTING
FORTH THE SPECIFIC GROUNDS UPON WHICH THE MOTION WAS
BASED.
Counsel knew that Victim had testified, in the video interview, to describing
her private area of which the Defendant had allegedly penetrated with his finger,
which she uses “to pee.” During direct exam, Victim stated in describing her
private area, “you go to the bathroom, to pee.” (T.T. pg. 224, lines 1-3). Both
descriptions Counsel knew Victim was describing her “urethra” canal and not her
vaginal canal of which the Defendant was charged. Counsel knew the “urethra” is
the canal that carries off urine in females while the “vagina” is the canal between
the vulva and uterus that leads to the external opening of the female sex organs.
Counsel prejudiced the Defendant and his trial for judgment of acquittal for
not setting forth these specific facts and grounds upon which the motion was
6

based, knowing that the prosecution failed to provide legally sufficient evidence
that the Defendant’s finger penetrated Victim’s vagina.

After the prosecution

rested its case (T.T. pg. 318), Trial Court asked Counsel, “Do you want to make a
motion just for the record?” Counsel replied, “Sure, Judge, the defense would
make a motion for JOA of insufficient evidence. There ... just leave it at that.”
(T.T. pg. 322-323). The Trial Court then asked the prosecution do they need to say
anything, of which the prosecution responded, “Do I need to say anything?” The
Trail Court replied, “I don’t think so. But I did want Counsel to put it in the
record.”
COUNSEL FAILED TO OBJECT ON SEVERAL OCCASIONS
The prosecution mislead the jury about facts not in evidence (T.T. pg. 405,
lines 6-9; pg. 387, lines 12-15). There was no evidence that anyone had too much
to drink. Counsel failed to object to speculation about DNA (T.T. pg. 308, line 23;
pg. 309, line 25).
COUNSEL FAILED TO IMPEACH VICTIM TESTIMONIES
Counsel failed to impeach victim testimony from Deposition and Trial
Transcripts conflicting testimonies. (Deposition Transcript, pg. 21, line 12-14).
(Question: At some point, Victim, you woke up? Answer: Yes. Question: Do
you have any idea? Answer: I don’t really know.) (T.T., pg. 269-274) was the
same identical questions, but different answers. The same thing happened in her

7

Deposition Testimonies, pg. 26, line 11. Victim stated she got up out of bed,
peeked around the comer, and saw Bo and her Dad on the couch. Now, (T.T. pg.
364, lines 12-20) Victim stated she never got back out of bed. These are to show
that Victim’s testimony was so inconsistent, there are several of these like:
(Deposition Transcript, pg. 22, lines 5-11) Question:

The person touch your

private part in the front or back. Answer: Front. Now (T.T., pg. 269, line 14-16)
Question: When the hand touch your private parts, did it come from the front of
your pajamas? Answer: I don’t remember. There were so many inconsistencies in
Victim’s testimony that Counsel prejudiced Defendant by not impeaching her
testimony. Inconsistent with the testimony and was given under oath is subject to
the penalty of perjury at a trial, hearing, or other proceeding or deposition. Fla.
Stat. 90.80 l(2)(a).
COUNSEL WAS INEFFECTIVE FOR FAILURE TO OBJECT TO THE
AMENDED INFORMATION WHICH CHARGED THE DEFENDANT
WITH A NON-EXISTENT OFFENSE/CRIME VIOLATING THE
DEFENDANT’S RIGHT TO DUE PROCESS UNDER THE SIXTH AND
FOURTEENTH
AMENDMENTS
OF
THE
UNITED
STATES
CONSTITUTION
Trial Counsel did not object nor file a motion to dismiss the amended
information. Therefore, Counsel was deficient because he knew that the amended
information charged the Defendant with a non-existent offense in the language of
its body.

Was the offense with which the Defendant was charged.

The

Defendant’s amended information charged Lewd and Lascivious Battery alleging
8

he “did unlawfully engage in sexual activity” by “intentionally touching in a lewd
or lascivious manner55 a and” “by penetrating the ... vagina with his finger.” The
insertion of the conjunction “and” in the language of the body between the phrased
elements, made both phrases facts/essential elements of the crimes. Thus created
and charged a non-existent offense/crime. See §800.04(4)(a) and §800.04(5)(a) for
definition of Lewd and Lascivious Battery and Lewd and Lascivious Molestation.
Counsel prejudiced the Defendant and his trial as a point of law that one
cannot be punished based on a judgment of guilt of a purported crime, when the
offense charged in the body of the information does not exist. Nor can one by
indicted for one non-offense and convicted and sentenced for another (even if void
by citation).
Counsel knew a fundamental matter of due process only allows the State
(and Courts) to punish one who has been charged clearly with an offense defined
by the legislative authority, through published laws.

Counsel prejudiced the

Defendant because it’s axiomatic that conviction be based on statutes defining
crimes not extended by intendment as there can be no constructive offense.
TRIAL COUNSEL COMMITTED ADDITIONAL INEFFECTIVENESS BY
CONCEDING GUILT OF THE DEFENDANT TO THE .TTTRY AND
INVITING ERROR WHEN QUESTIONING VICTIM ON AN ELEMENT
CHARGED
Counsel asked Victim: “Okay. Now when the hand touched your vaginal
area, did it come from the top of your pajamas.” (T.T. pg. 269). The term vaginal
9

area was never used by the State nor the Victim and Counsel did not inform the
Defendant he would use the term to associate with the language in the element
charge against him. The Defendant testified he did not commit alleged crime, yet
Counsel invited error and conceded guilt when he used the term “vaginal area”
during questioning of the victim. This violated Defendant’s Fifth Amendment
right against self-incrimination and unfairly prejudiced his trial. Furthermore, the
victim never used the “vaginal area,” only private parts and private part area.
COUNSEL FAILED TO HOLD PROSECUTION TO HER COMMENT
The Prosecutor conceded that the Defendant did not penetrate the victim in her
hearsay transcript (Pg. 154, lines 5-7). Victim said that she was not digitally
penetrated she saying he put his finger inside my private area. This information
was very vital due to the fact that “penetration” is one of the essential elements of
the charge of Lewd or Lascivious Battery.

Prosecution stated in her closing

argument (T.T. pg. 409, lines 3-10): “To prove the crime of Lewd or Lascivious
Battery, the prosecution must prove the following two elements beyond a
reasonable doubt: (1) Victim was 12 years of age or older but under the age of 16
years; and (2) Mr. Benjamin committed an act in which the vagina of Victim was
penetrated by an object; an object includes a finger.” The prosecution stated also
in her (hearsay transcript pg. 154, lines 5-7) that Victim said in her own words “she
was not digitally penetrated” she saying he put finger inside my private area. (T.T.

10

pg. 249, line 24). When you say inside your private area what do you mean?
(Line 26). Hand inside my drawers. (T.T. pg. 250, line 8) Question: “When you
say your private area what do you use this part of your body for?” Answer: “Go
to the bathroom and pee!” Now that part of a female body cannot be penetrated.
So this is not her vagina because pee does not come out of the vagina. Therefore,
this portion of the second element for the charge of Lewd or Lascivious Battery
has not been proven beyond a reasonable doubt. And for the prosecution to even
charge the Defendant with information when she knew it was false.

The

prosecution was required to prove that Defendant penetrated the Victim’s vagina
with his finger and since the record failed to establish that “key element,” the Court
held that the Trial Court erred in denying Defendant’s motion on the acquittal on
the Count. See Furlow v. State, 529 So. 2d 804 (Fla. 1st DCA 1988).
COUNSEL’S FAILURE TO OBJECT TO THE USE OF ENHANCEMENT
BEING CALCULATED ON THE SCORESHEET FOR ADULT-ONMINOR OFFENSE MULTIPLIER
Counsel was ineffective for failure to object to the adult-on-minor multiplier
at sentencing being considered/used for qualification (on scoresheet) and thus
waived the court’s discretion to sentence the Defendant to the lowest permissible
sentence under a correct scoresheet. This violated the Defendant’s right to a full
and fair sentencing proceeding and due process under the Sixth and Fourteenth
Amendments to the U. S. Constitution.

11

Trial counsel is presumed to know the law and should have known that the
Defendant did not qualify for the adult-on-minor multiplier.
§921.0024(l)(b) (2016).

Fla. Stat.

(Adult-on-minor multiplier) in pertinent part, set forth

the following criteria for application:
Adult-on-minor sex offense: If the offender was 18 years of age or
older and the victim was younger than 18 years of age at the time the
offender committed the primary offense, and if the primary offense
was an offense committed on or after October 1, 2014, and is a
violation of s. 787.01(2) or s. 787.02(2), if the violation involved a
victim who was a minor and, in the course of committing that
violation, the defendant committed a sexual battery under chapter 794
or a lewd act under s. 800.04 or s. 847.0135(5) against the minor; s.
787.0l(3)(a)2. or 3.; s. 787.02(3)(a)2. or 3.; s. 794.011, excluding s.
794.011(10); s. 800.04; or s. 847.0135(5), the subtotal sentence points
are multiplied by 2.0.
The plain language of the statute and rule statutory construction lists the qualifying
criteria for the Defendant to qualify as:
1. The age of the defendant and victim initially at the time offender committed
the primary offense;
2. Primary offense was committed on or after October 1, 2014;
3. Is a violation of 787.01(2) (kidnapping) or 787.02(2) (false imprisonment) if
the violation involved a minor “and” in the course of committing that
violation; and
4. The defendant committed ... lewd act under s. 800.04.
... the sub-total sentence points are multiplied by 2.0.
The Defendant did not commit the third element (kidnapping or false
imprisonment) of the qualifying violation nor was in the course of committing
either one of the qualifying violations when he was alleged to have committed the

12

charged offense of Lewd and Lascivious Battery. Counsel further prejudiced the
Defendant to a full and fair sentencing proceeding and due process because the
Defendant was sentenced with an incorrect scoresheet which allowed the State to
misapply the law when they prepared the scoresheet without objection. (See Rule
3.704(d)(1), Fla.R.Crim.P.) The prosecution must prepare the scoresheet and
present them to the Defense Counsel for review as to accuracy,

Counsel

involuntarily waived the discretion of the Court to sentence the Defendant under a
correct scoresheet with a lower permissible sentence of 8.56 years in prison. This
was the correct calculation absent the multiplier.
ISSUE TWO
TRIAL ERROR
TRIAL ERROR/ABUSE OF DISCRETION
There are factors as to spontaneous of the statement for safeguards of
reliability in a child statement. The State made the Court think that the victim
immediately called her mother (T.T. pg. 380, line 5) which is not the truth. The
record states the mother, Katina Henderson, testified (see T.T. pg. 166, lines 1723) that when she was talking with Victim on one phone while Leon Benjamin
(stepfather) was engaged in a conversation with the Defendant on another phone
which she could hear in the background noise over the phone. Therefore, Victim
had already informed the stepfather or they had this already planned. It goes to

13

show that Victim had already discussed the incident with Leon, and lied when she
stated in trial (T.T. pg. 258, lines 5-9) and (Deposition page 28, line 2-18) that she
did not tell him because she felt more comfortable telling her mom. The Judge’s
decision was made under false pretences considering the Judge’s statement from
the (Hearsay Transcript, page 157, line 2) “The child statement is spontaneous.
It’s immediately given in time.” For a hearsay statement to be admitted under Fla.
Stat. §90.803(23), the statement must meet two specific reliability requirements:
(1) The source of the information through which the statement was reported must
indicate trustworthiness; and (2) (emphasis added) “Timing,” content, and
circumstance of the statement must reflect that the statement provided sufficient of
reliability. The trial court judge must determine whether the hearsay statement is
reliable and from a trustworthy source and not let the “State” determine
trustworthiness of the victim. A factual analysis test of the victim to determine
trustworthiness. Fla. Stat. §90.803(c). Failure to comply with some or all of the
notice requirement that will hold the trial court had failed to make the required
specific finding of fact where it did not indicate what circumstance it relied upon.
But instead indicated that statements were based upon “person experience and
intuition.” (T.T. pg. 116-118). The Court’s factual analysis test consisted of
asking the victim what her first and last name and how old are you, what grade are
you in, and do you know the difference between lying and telling the truth. The

14

trial court never asked was she under any pressure from anyone to come in today
and say these things or any question to determine had she ever not been honest or
asked her some of the questions from off the deposition to determine if she is being
consistent and trial court should have made specific findings of fact on the record
setting for the reason why the Court determined that the statement was reliable and
why the reason indicating lack of reliability were discounted,

The first

requirement was added to ensure a careful examination of the source. Particularity
as in the instant case, the circumstances involve a domestic altercation between the
victim’s stepfather and Defendant which gave a reason for the victim to be biased
to the Defendant.
TRIAL COURT/ABUSE OF DISCRETION
By admitting irrelevant testimony evidence when Katina Henderson (the
mother) only testified to a statement that was given to her over the telephone. But
limited the testimony of Douglas Benjamin (the grandfather) of relevant evidence
that was given to him when he spoke to Victim when she was being interviewed at
the Gulf Coast Kid’s House. Substantiated evidence must be known to the Court
and provide that all relevant evidence is admissible. Fla. Stat. §90.402 (2018).
Douglas Benjamin is the father of Leon Benjamin and the grandfather of Victim
and was a relevant hearsay witness.

By limiting his testimony by the Court

constituted bias to the Defendant by refusing to allow him to defend himself. The

15

Court was informed of the testimonies that Douglas Benjamin was about to testify,
knowing the function of the family and was at the home the day of the alleged
crime and was at the Gulf Coast Kid’s House to show his support to Victim as a
grandfather. The prosecution (during a side-bar conference) informed the Court
that Douglas Benjamin stated in his deposition that Leon Benjamin (his son) was
acting suspiciously and nervously, once Victim entered the room from being
interviewed. Leon ran over to her and immediately asked her what did they ask
her about him. The prosecution knowing his testimony was vital to the case (see
T.T. pg. 327, line 18), also earlier during a side-bar, the prosecution mentioned to
the Trail Court Judge before Douglas Benjamin took the witness stand that he was
going to testify from his deposition stating (see T.T. pg. 172, line 21). The Trial
Court Judge was also informed by the prosecution that Douglas Benjamin said
“that he took Victim off to the side and had a conversation with her privately about
these allegations and she told him that she was never touched.” The Trial Court
Judge was aware of this vital information and knew that this information was vital
to the Defendant in defending himself and this information was withheld from the
jury. Florida law provides that “all relevant evidence is admissible.” Fla. Stat.
§90.402 (2018). Also, “relevant evidence is evidence tending to prove or disprove
a material fact.” Fla. Stat. §90.401 (2018). The Trial Court Judge was prejudicial
when Douglas Benjamin’s testimony was denied and the prosecution’s witness,

16

*

Katina Henderson’s testimony was admitted as relevant evidence. When the Trial
Court Judge caught Katina Henderson adding words that were not said in her
testimony. (See Hearsay Transcript, pg. 150, line 4-17). She said that Victim told
her “he stuck his finger in her vagina.” Which was not true; those were her words.
Therefore, her testimony was fabricated also. This type of testimony is covered in
Fla. Stat. §90.403. If the evidence confuses or misleads the jury of the issues, it is
considered irrelevant. Also the Trial Court informs the jury during the closing
arguments that the attorneys are allowed to say things that are not evidence of fact.
(T.T. pg. 376, line 6). This was the green light that the prosecution needed to say
all the things that were not fact and not in evidence to influence the jury decision
on comments made that were not true and improper expressions of personal
opinion, commenting on facts not in evidence, appealing to the jury’s emotion and
sympathy.
ABUSE OF DISCRETION/ALLOWING IRRELEVANT EVIDENCE DNA
THAT DID NOT MATCH THE DEFENDANT
Per Justice Farmer, in the world of trial evidence, DNA may well be at the
top of the chart. It is the single most formidable evidence in proving many sexual
offenses. Because of DNA evidence is well and truly laid before the jury, a guilty
verdict is all but a downhill slide for a defendant. An abuse of discretion to allow
DNA evidence that did not match the Defendant into evidence was very crucial to
the Defendant’s case.

The Defendant’s DNA is on file with the Florida
17

Department of Law Enforcement DNA CORDIS computer files. This means that
his DNA is on file just like one’s fingerprints. If there is no match between the
alleged suspect from the evidence DNA, potential suspect is generally ruled out as
the source of the evidence. {Butler v. State, 842 So. 2d 817 (Fla. 2003)). Dr.
Shannon Elliott, FDLE Crime Lab Analyst, analyzed two (2) swabs collected from
Victim external and internal vaginal area and testified that she found no DNA from
the swabs; but a trace amount of male DNA was found on another sample collected
from Victim’s underwear but there was not enough DNA for further testing or to
determine who’s DNA it was. There were other male members that were present
and were not tested for a match; only the Defendant was tested. {Hyre v. State, 240
So. 3d 47 (Fla. 2nd DCA 2018). The prosecution failed to test alleged victim’s
brother that was in bed with her.

Therefore, where there was not clear and

convincing evidence that the Defendant committed the act (§90.404(2)(b)l, Fla.
Stat.) and the evidence should not have been admitted in as relevant evidence due
to the fact, like the prosecution did use this evidence in closing argument, to say
that the Defendant committed the crime just because DNA evidence was found.
This evidence only prejudiced the Defendant.

18

ISSUE THREE
PROSECUTORIAL MISCONDUCT
The prosecutor is to abide to strict guidelines as to court procedure and
should not use any personal prejudice bias tactics to convict a defendant. Their
focus should not be about winning the case by any means necessary, but to seek
justice and the truth, that the guilty should not escape and the innocent not suffer
undue punishment which has been done in this case and is fundamentally unfair
and overzealousness and improperly conducted by this prosecutor which is about
to be outlined in following argument.
PROSECUTOR SOLICITED COMMENT FROM VENIRE TO DISCREDIT
DEFENDANT
The beginning of jury selection, Juror #55, Ms. Stacy White, informed the
Court that she is currently employed at Escambia County Jail (T.T. pg. 11, line 12). During opening remarks to venire was a solicited question by the prosecutor
asking if anyone “knew” her or defense counsel.

(T.T. pg. 32, line 15).

Immediately afterward, instead of asking the same question if anyone “knew” the
Defendant, the prosecutor asked does anyone “recognize” the Defendant (T.T. pg.
33, line 5), which changed the question and the outcome. Immediately, Juror #12,
Mr. Brown responded, I think that I know him from jail (T.T. pg. 33, line 16) and
Juror #55, Ms. White that works at the Escambia County Jail recognized the

19

Defendant and several other jurors also.

This solicited comment by the

prosecution was a miscarriage of justice by tainting the venire.
PROSECUTION VIOLATED THE EQUAL PROTECTION CLAUSE BY
DELIBERATELY STRIKING BLACK JURORS AND MALE JURORS
The State’s purposeful denial of black and men from sitting on the
Defendant’s jury trial in the administration of justice violated the equal protection
clause of the Fourteenth Amendment. Swain v. Alabama, 380 U.S. 203, 204, 13
L.Ed.2d 759, 85 S.Ct. 824 (1964). During selection of the jury, there were two (2)
prospective jurors, #13 and #20, (T.T. pg. 91 line 19), that were struck by the
prosecution. Defense requested a race neutral reason and noted the jurors were
black. State Attorney explained that it was striking Juror #13 because he did not
complete the top portion of the questionnaire (T.T. pg. 92-95); which the Defense
argued that the prosecution did not give a race neutral reason for the strike. Now
for Juror #20 (T.T. pg. 97, line 9), the prosecution struck her because she was a
witness for both the State and Defense in a case back in 2003, 15 years ago. The
Court accepted the reason as both genuine and race neutral which was not race
neutral or was it absent the remarks that Mr. Lyon was illiterate or insinuated that
he was when he only said that he had a hard time reading the small print without
his glasses. Secondly, Juror #20, Ms. Cheatum (T.T. pg. 97, line 11-16), the State
recalling only that she was a black female when referred to.

The State only

referred to particular jurors as black jurors, the State never insinuated that a certain
20

juror was Latino or Asian or White; only when she referred to Blacks. She made
sure that the judge was aware that particular juror was of African-American
descendant (T.T. pg. 91, line 22 and page 97, line 11). The need to protect against
bias is particularly pressing in the selection of a jury and is a matter of great public
interest because the Equal Protection Clause guarantees criminal defendants that
the prosecution will not exclude members of their race or gender from the jury
venire on account of race on the false assumption the member of their race as a
group are not qualified to serve as a juror. (Batson v. Kentucky, 476 U.S. 79, 90
L.Ed.2d 69, 106 S.Ct. 1712 (1986)). The very idea of a jury is a body composed of
the peers or equals of the person whose rights it is selected or summoned to
determine: this is, of his neighbors, fellows, associates, persons having the same
legal status in society as that which he holds. In the instant case, the prosecution
was able to surgically insert a heterogeneous white male to masquerade the jury
that was 7 out of 8 white female jurors not including the prosecution and judge.
These charges alleged against the Defendant are violent against females and a child
which would be extremely prejudicial against the Defendant. Therefore, having a
courtroom of judge, jury, and prosecution of all females is not coincidental but was
a matter of prejudice and not wanted the Defendant to have a fighting chance of
defending himself which you see throughout these arguments.

21

The prosecution has a sworn duty to correct testimony he or she knows to be
false. Giglio v. U.S., 405 U.S. 150, 154, 31 L.Ed.2d 104, 90 S.Ct. 763 (1972). The
presiding prosecutor in the instant case, not only knew of false testimony but
manipulated the testimony of the victim to change her original deposition taken at
the Gulf Coast Kid’s House, 3401 North 12th Avenue, Pensacola, Florida on May
19, 2017 at 10:30 a.m. (Appendix F). The prosecution may strike hard blows, but
are not at liberty to strike foul ones.

Consequently, improper suggestions,

insinuations, and especially assertion of personal knowledge are apt to carry such
weight against the accused when they should properly carry none. (Fla.R.Bar. 48.4(c); U.S. Const. Amend. XIV; and a Giglio Violation). During the trial recess,
the prosecutor approached the bench and informed the Judge that she had acquired
some information that the defendant was to shout out that “all his felony
convictions were due to driving with suspended license.” (T.T. pg. 321, line 11).
Which the Defendant admits that this information was only mentioned to his
girlfriend on the phone in the Escambia County Jail. The prosecutor would listen
to inmate conversation and use the evidence to obtain convictions. The prosecutor
did listen to Defendant’s conversations with his girlfriend and obtained the plans
that he had discussed to have the victim’s statements impeached due to
inconsistencies in her testimony in the original Deposition and the Trial
Transcripts, which is about to be outlined in these statements. “Coaching the

22

Victim”

The prosecution, knowing that the Defendant had gathered several

inconsistencies in Victim’s Deposition, coached the victim to change her original
Deposition statement like: (Deposition, pg. 11, line 18; pg. 12, line 6) Victim
stated that the Defendant and her uncle Bo was at her house the entire day and did
not leave at all until midnight. Now at trial, Victim changed her statement once
prosecutor realized that another witness, “Bo,” had testified that the Defendant and
himself and Leon had left to visit Bo’s parents (T.T. pg. 198, line 8). So Victim
changed her statement to say: “Yes, they left to go to the store or something.”
(T.T. pg. 265, line 10-15). “Inconsistency” Now, while the Defendant was on the
witness stand he was asked: (T.T. pg. 346, line 12) “Did Victim come out of her
room at any point?” (Answer) “I think she walked out and went in the kitchen and
got something.” Now, during re-direct examination (T.T. pg. 364, line 12-18)
Victim was asked: “Did you ever get back out of bed to get something from
kitchen.” Victim answered: “No.” Now in Victim’s Deposition she stated: (Pg.
26, line 11) “When I woke up, I got up and peeked around the comer and my
Uncle Bo was on the couch.” Also she said: “After he walked out of the room, I
got out of bed.”

(Pg. 26, line 20).

“Coaching”

During Victim’s original

Deposition, she stated that she had fallen asleep and her brother and sister was
awake when she felt someone touching on her. (Deposition, pg. 19, line 19).
Which she also explained that this was not unusual because her brother does it

23

often when he sleeps with them. (Deposition, pg. 20, line 20) “When he goes to
sleep he rubs on us.” At this time she never said that “he play in their hair.” And
she stated that she did not see anyone in the room. (Deposition, pg. 20, line 25; pg.
26, line 1-4). Now, during cross-examination, Katrina Henderson (mother), who
was the first person Victim explained her statement to when she called her on the
phone (T.T. pg. 178, lines 11-21), Victim says she felt a hand on her belly; it went
down the front of her pajamas into her private area; all at one time; not two
separate events. Now after going to the Gulf Coast Kid’s House and explaining
her testimony to the CPT Counsel (Ms. McCreary), her story has changed to two
separate events. (T.T. pg. 248, line 2 through pg. 250, line 13). Now in this
testimony, Victim states that she did not see anyone and no one was in the room
and she really thought it was her little brother who had rubbed on her which he
always does. It leaves room to think that someone suggested to her that her Uncle
Mike was the one who had rubbed her stomach and made her think that there was
two separate incidents. “Coaching” (T.T. pg. 250, line 13) She stated when you
felt the hand inside of her private area, she woke up. Now when Victim was asked
did the person’s hand touch your private part in the front or the back? Victim
answered: “The front” in her Deposition, pg. 22, line 14-16. When asked during
trial: “When the hand touched your private part area, did it come from the front of
your pajamas?” Victim answered: “I don’t remember.” (T.T. pg. 269, lines 14-16).

24

There are some situations here that you can’t help but believe that someone is
telling Victim what to say like this: (T.T. pg. 269, line 4) Question: I think you
said you went to sleep. Do you have any idea how long you were asleep? Answer:
5 or 10 minutes. Question: Now, have you ever said before that you weren’t sure
that you didn’t know how long you were asleep? Answer:

Yes, I think so.

Question: But today even though you said that before, what you are saying today
is, you think it was 5 minutes. Answer: Yes.
Now, four (4) months earlier, Victim said in her Deposition with the same
identical questions, (Deposition, pg. 21, line 10): “I think you said you went back
to sleep.” Answer: “Yes.” Question: “Then at some point you woke up later?”
Answer: “Yes.” Question: “Do you have any idea how much later?” Answer: “I
don’t really know. It was somewhere around 11:30” Question: “Do you have any
idea what time it was you woke up the first time.” Answer: “No.”
Now, during the Gulf Coast Kid’s House visit, the following morning of the
alleged incident, a forensic interview was conducted was Victim (T.T. pg. 212, line
9) there was an Escambia County Sheriff Investigator, Heather Kinnard, present
and was part of this case as an observer consultant at the Kid’s House (T.T. pg.
210, line 23). It was during this interview that Investigator Kinnard observing, the
victim from another room, stated in her official report that the Defendant touched
the inside of her vagina with his hand, to obtain an arrest warrant report (Appendix

25

F). Not once in the forensic interview at the Gulf Coast Kid’s House did the
alleged victim say that the inside of her vagina was touched. And when she was
referring to her private area, she would say (T.T. pg. 249, line 25 through pg. 250
line 10) hand inside my drawers, and when you say private area, you use it to go to
the bathroom and pee.

This description is not her vaginal canal.

This is a

description of the urethra canal which refuted the elements of Lewd and Lascivious
Battery which require the penetration of the vaginal canal. Therefore, Inspector
Kinnard falsified the police warrant and the prosecution was aware of the
information. The improper application of these actions was not harmless. The
prejudicial nature of these statements outweighed their probative value. Therefore,
this is a Giglio violation
PROSECUTORIAL MISCONDUCT/CLOSING ARGUMENT/FACTS NOT
IN EVIDENCE
As was said earlier, the prosecution is to abide to strict guidelines as to court
procedure and should not use any personal prejudice, overzealous bias tactic to
convict a defendant especially in the presence of the jury which this prosecutor did
when she commented about the alleged victim being digitally penetrated. (T.T. pg.
405, lines 8-9). There was no evidence or even the mention of evidence about
being penetrated; during closing remarks these was consider to be evidence (T.T.
pg. 387, lines 11-18) insinuating the Defendant had too much to drink as to the
cause of this crime. There was no evidence to the fact that anyone had too much to
26

drink. Also during closing remarks, the prosecutor inappropriately insinuated that
the DNA collected proves that the Defendant had touched the victim (T.T. pg. 382,
lines 23 through pg. 383, line 1) and from Dr. Elliott’s testimony, she stated from
(T.T. pg. 307, line 14-16) there was no male quantifiable DNA there. So by her
protocols, analysis was stopped on that sample. She also stated the exterior swabs
indicated a trace of male DNA and could have come from a male brother sleeping
in the same bed with the victim. As for the instant case, the victim stated that her
brother and sister were all in the same bed the night of the alleged incident. (T.T.
pg. 244, line 21-22). Once again, the prosecution prejudiced the Defendant. The
Giglio violation states: (1) That the State possessed evidence favorable to the
Defendant; prosecutor knew that the victim said that she was not saying that she
was digitally penetrated. (2) The evidence was suppressed; yes, prosecutor knew
and still filed charge of digital penetration.

(3) That he did not possess the

favorable evidence; this information was not given to the Defendant until after he
was convicted.
PROSECUTORIAL
SCORESHEET

MISCONDUCT

/

SUBMITTING

ERRONEOUS

The prosecution’s use of the adult-on-minor offense multiplier to enhance
the Defendant’s scoresheet. The Defendant’s sub-total points on the scoresheet
were 165.0. However, that score was doubled due to adult-on-minor multiplier.
The prosecution requested that Defendant be sentenced to the LPS of 226.5 months
27

in prison (Sentencing, pg. 38-40, Appendix E), but Appellate Counsel stated that
Fla. Stat. §921.0024(l)(b) does not allow sentencing beyond the statutory
maximum for a primary offense, which was 15 years, but the multiplier was not
removed to reflect a correct scoresheet. Also this violated the Defendant’s right to
a full and fair sentencing proceeding and due process. Fla. Stat. §921.0024(1 )(b)
(2016).

(Adult-on-minor multiplier) in pertinent part, set forth the following

criteria for application:
Adult-on-minor sex offense: If the offender was 18 years of age or
older and the victim was younger than 18 years of age at the time the
offender committed the primary offense, and if the primary offense
was an offense committed on or after October 1, 2014, and is a
violation of s. 787.01(2) or s. 787.02(2), if the violation involved a
victim who was a minor and, in the course of committing that
violation, the defendant committed a sexual battery under chapter 794
or a lewd act under s. 800.04 or s. 847.0135(5) against the minor; s.
787.01(3)(a)2. or 3.; s. 787.02(3)(a)2. or 3.; s. 794.011, excluding s.
794.011(10); s. 800.04; or s. 847.0135(5), the subtotal sentence points
are multiplied by 2.0.
But the Defendant did not commit either one of the qualifying violations,
§787.01(2) or §787.02(2), kidnapping or false imprisonment nor was he in the
course of committing either one. Note that this prejudiced Defendant and his
sentencing proceeding, waiving the discretion of the Court to sentence the
Defendant under a correct scoresheet with a LPS of 8.56 years in prison instead of
the 15 years Defendant received. Fla.R.Crim.P. 3.704(d)(1). The office of the
prosecuting attorney must prepare a correct scoresheet and present them to the

28

defense for review.

The incorrect scoresheet deprived the Defendant from

receiving a lowest permissive score of 8.56 years.
REASONS FOR GRANTING THE PETITION
The Defendant did not have a fighting chance at winning this case due to the
fact that there was no one in the Courtroom allowing the Defendant to defend
himself. Defense Counsel threw the Defendant out to the wolves by making
boilerplate Motion of Judgment of Acquittal without setting forth the specific
ground upon which the motion was based, and the judge outrageously biased by
limiting the defense witness testimony, and the prosecution stacking the jury pool
with all white female jurors, coaching the victim, commenting on facts not in
evidence at closing argument and submitting erroneous scoresheet to penalize the
Defendant to the fullest. These are the reasons why the Court should grant this
motion. The United States Constitution guarantees that a defendant should have a
fair trial by a jury of his peers and able to present relevant evidence to defend
before a jury of a cross-section of his community. Our criminal justice system
requires not only freedom from discrimination but Lady Liberty is blindfolded and
holding those scale that should be balanced equally.

29

CONCLUSION
There cannot be equal justice where the kind of trial a defendant gets
depends on the money he has. The Defendant understands that the Florida judicial
system have their own Florida Constitution and apply it accordingly to their own
standards. But Defendant prays that the United States Supreme Court of this great
country applies our Constitution to the way our founding fathers wrote it to be.
And that an indigent defendant shall have effective assistance of counsel and
receive due process of law according to Amendment Six and Fourteen.
Due to an accumulation of plain errors from the face of the record, render
the Defendant helpless of a fair trial and find that this Writ of Certiorari should be
granted.

30

